4
I

C@QCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-762
ERIC FERRIER,
Petitioner,

vs.
CASCADE FALLS CONDOMINIUM
ASSOCIATION, INC., BANK OF AMERICA NA,
TODD STOLFA, and LISA KEHRER,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI ON BEHALF OF RESPONDENT CASCADE FALLS
CONDOMINIUM ASSOCIATION, INC. in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5379 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of January, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

  

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska wv Chby
RENEE J, GOSS 9. 4

Notary Public Affiant 40537
